<html>
<title> - JOINT HEARING ON THE LEGISLATIVE PRESENTATION OF THE VETERANS OF FOREIGN WARS OF THE UNITED STATES</title>
<body><pre>[Senate Hearing 116-389]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 116-389
 
                    JOINT HEARING ON THE LEGISLATIVE
   PRESENTATION OF THE VETERANS OF FOREIGN WARS OF THE UNITED STATES

=======================================================================

                             JOINT HEARING

                                 OF THE

                     COMMITTEE ON VETERANS' AFFAIRS

                               BEFORE THE

                     U.S. HOUSE OF REPRESENTATIVES

                                AND THE

                              U.S. SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 4, 2020

                               __________

      Formatted for the use of the Committee on Veterans' Affairs
      
      
      
      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
 
 
 


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
                            ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
 42-783 PDF           WASHINGTON : 2021         
        
        
                 SENATE COMMITTEE ON VETERANS' AFFAIRS

                     Jerry Moran, Kansas, Chairman

John Boozman, Arkansas               Jon Tester, Montana, Ranking 
Bill Cassidy, Louisiana                  Member
Mike Rounds, South Dakota            Patty Murray, Washington
Thom Tillis, North Carolina          Bernard Sanders, (I) Vermont
Dan Sullivan, Alaska                 Sherrod Brown, Ohio
Marsha Blackburn, Tennessee          Richard Blumenthal, Connecticut
Kevin Cramer, North Dakota           Mazie K. Hirono, Hawaii
Kelly Loeffler, Georgia              Joe Manchin III, West Virginia
                                     Kyrsten Sinema, Arizona

            Caroline R. Canfield, Republican Staff Director
                Tony McClain, Democratic Staff Director

        HOUSE OF REPRESENTATIVES COMMITTEE ON VETERANS' AFFAIRS

                   Mark Takano, California, Chairman

Julia Brownley, California           Dr. Phil Roe, Tennessee, Ranking 
Kathleen Rice, New York                  Member
Conor Lamb, Pennsylvania             Gus M. Bilirakis, Florida
Mike Levin, California               Amata C. Radewagen, American Samoa
Anthony Brindisi, New York           Mike Bost, Illinois
Max Rose, New York                   Dr. Neal Dunn, Florida
Chris Pappas, New Hampshire          Jack Bergman, Michigan
Elaine Luria, Virginia               Jim Banks, Indiana
Susie Lee, Nevada                    Andy Barr, Kentucky
Joe Cunningham, South Carolina       Dan Meuser, Pennsylvania
Gil Cisneros, California             Steve Watkins, Kansas
Collin Peterson, Minnesota           Chip Roy, Texas
Gregorio Kilili Camacho Sablan,      Greg Steube, Florida
    Northern Mariana Islands
Colin Allred, Texas
Lauren Underwood, Illinois

                       Ray Kelley, Staff Director
                 Jon Towers, Republican Staff Director

                            C O N T E N T S

                              ----------                              

                        Wednesday, March 4, 2020

                                                                   Page

                                SENATORS

Moran, Hon. Jerry, Chairman, U.S. Senator from Kansas............     2
Tester, Hon. Jon, Ranking Member, U.S. Senator from Montana......     7
Tillis, Hon. Thom, U.S. Senator from North Carolina..............    17
Sullivan, Hon. Dan, U.S. Senator from Alaska.....................    21
Boozman, Hon. John, U.S. Senator from Arkansas...................    23
Sinema, Hon. Kyrsten, U.S. Senator from Arizona..................    27

                            REPRESENTATIVES

Takano, Hon. Mark, Chairman, U.S. Representative from California.     1
Roe, Hon. Phil, M.D., Ranking Member, U.S. Representative from 
  Tennessee......................................................     4
Pappas, Hon. Chris, U.S. Representative from New Hampshire.......    16
Brownley, Hon. Julia, U.S. Representative from California........    19
Cisneros, Hon. Gil, U.S. Representative from California..........    22
Bilirakis, Hon. Gus M., U.S. Representative from Florida.........    26
Lamb, Hon. Conor, U.S. Representative from Pennsylvania..........    29

                               WITNESSES

Reed, Hon. Tom, U.S. Representative from New York................     9
Schmitz, William ``Doc'', Commander-in-Chief, Veterans of Foreign 
  Wars of the United States; accompanied by B.J. Lawrence, 
  Executive Director; Ryan Gallucci, National Veterans Service 
  Director; Carlos Fuentes, National Legislative Service 
  Director; and Ronald Rusakiewicz, National Legislative 
  Committee Chairman.............................................    10

                                APPENDIX

    Response to posthearing questions submitted by Hon. Kyrsten 
      Sinema.....................................................    34
    Schmitz, William ``Doc'', Commander-in-Chief, Veterans of 
      Foreign Wars of the United States, Prepared statement......    36


                    JOINT HEARING ON THE LEGISLATIVE

   PRESENTATION OF THE VETERANS OF FOREIGN WARS OF THE UNITED STATES

                              ----------                              


                        WEDNESDAY, MARCH 4, 2020

             U.S. House of Representatives,
                                   and U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committees met, pursuant to notice, at 10 a.m., in room 
G50, Dirksen Senate Office Building, Hon. Jerry Moran and Hon. 
Mark Takano, Chairmen of the Committees, presiding.
    Senators present: Senators Moran, Boozman, Rounds, Tillis, 
Sullivan, Tester, Brown, Manchin, and Sinema.
    Representatives Present: Representatives Takano, Brownley, 
Lamb, Pappas, Cunningham, Cisneros, Allred, Underwood, Roe, 
Bilirakis, and Roy.

        OPENING STATEMENT OF HON. MARK TAKANO, CHAIRMAN

    Chairman Takano. Good morning, everyone. I am honored to be 
here truly with my colleague, Chairman Moran, Senator Tester, 
who should be joining us, Ranking Member Roe, and all of the 
members of the House and Senate Committees on Veterans' 
Affairs.
    Today we will hear the testimony from Veterans of Foreign 
Wars, and before we get started, I would like to recognize our 
guests from my home state of California. Are you here?
    All right. All right. Thank you. We can give them a hand.
    [Applause.]
    Chairman Takano. Well, thank you.
    These annual hearings are critical so Congress can hear 
directly from organizations that work with and support veterans 
and their families every day. This work provides insights to 
the challenges faced by veterans and opportunities for 
improving VA's policies and programs. These committees rely 
heavily on the veterans service organizations to provide the 
voice of the veteran, to highlight for us the issues that 
veterans are facing across the country, and I am grateful to 
the VFW and other VSOs for providing us that insight.
    I am heartened to see that we share many of the same 
priorities. And, not to steal your thunder, but I would like to 
underscore just some of the priorities that we do share.
    Our veteran population is increasingly more diverse. We 
must support our women veterans, our LGBTQ veterans, minority 
veterans, and Native American veterans, and we must ensure that 
VA provides culturally competent care for all eligible 
veterans. We must ensure that VA provides a safe environment of 
care for veterans who may have experienced military sexual 
trauma and improve how VA evaluates claims related to those 
traumatic experiences.
    As Chairman, I made reducing veteran suicide my number 1 
priority and adopted a comprehensive evidence-based framework 
to address this crisis from every angle. Our approach takes 
into account multiple factors that could reduce veteran 
suicide, everything from lowering economic burdens to 
increasing access to care--actually, let me say that again--
everything from lowering economic burdens to increasing access 
to care and improving crisis intervention for those at higher 
risk.
    Now, earlier this year, I introduced H.R. 5697, the 
Veterans Access Act, to ensure all veterans, regardless of 
their discharge status or eligibility for other VA health care 
benefits have access to emergency mental health care they need 
without ever seeing a bill. When a veteran is in crisis, 
worried about how they will pay for their care should be the 
last thing on their minds. This legislation is the latest of 
many actions our committee has taken, and I am looking forward 
to working with Chairman Moran, Ranking Member Tester, and 
Ranking Member Roe to pass this bill and save veterans' lives.
    We also must do better when it comes to caring for veterans 
who have been exposed to toxic substances in the course of 
their service. The Department of Defense and VA must better 
track those exposures and be better prepared to treat those 
veterans when they leave the service, and that is why I 
recently sent a letter with 77 of my colleagues pressing 
President Trump to take necessary corrective action and add 
four diseases to the Department's presumptive list that we know 
to be linked to Agent Orange exposure. This will ensure 
veterans can access crucial VA health care and disability 
benefits. We are still awaiting a response from the 
administration.
    You identified concerns in multiple areas that speak to 
VA's information technology infrastructure, and I agree that we 
must ensure that VA has the proper funding to ensure a 21st 
century technology infrastructure to support its multitude of 
systems.
    We must also ensure that VA updates its infrastructure and 
its aging IT systems while making wise use of taxpayer funds.
    I also thank the Veterans of Foreign Wars and other VSOs 
for holding the line, for taking care of America's veterans, 
and for keeping Congress and the administration accountable to 
those brave men and women. I look forward to hearing your 
testimony and thank you for all the work that you have done in 
the service of veterans and their families.
    I now end my opening remarks, and I would like to recognize 
Chairman Moran for his opening statement. Mr. Chairman?

             OPENING STATEMENT OF HON. JERRY MORAN

    Chairman Moran. Chairman Takano, thank you very much. It 
has been a pleasure to date to work with you, and I am pleased 
to join you here today as we welcome the VFW to our Joint 
Committee hearing.
    I welcome the Veterans of Foreign Wars here today as well 
as the hundreds of VFW members and Auxiliary members who have 
joined us.
    My father, a World War II veteran, was an active member of 
the VFW in my hometown and its post, and I grew up having 
highest regard, which has continued through the years, for VFW 
and its members.
    I extend a special welcome to my Kansas VFW members, and 
not to be outdone by California, I need to ask them to please 
stand and wave so that we can recognize you.
    [Applause.]
    Chairman Moran. Thank you for the relationship, the 
friendship, and the working times that we have together and for 
what you do for veterans and in communities across Kansas.
    Thank you to all of you from all over the country who took 
time away from your day-to-day responsibilities to be here, for 
making the trip to our Nation's Capital. I think it is one of 
the most significant days, one of the times in which I feel 
greater levels of hope and optimism is when I walk the halls of 
these office buildings in the U.S. Capitol, and I see VFW 
members and the Auxiliary and their presence. We know that you 
are here, and it reminds us of our responsibilities.
    I indicated the other day during a hearing that I often 
walk down to the Lincoln Memorial for the purposes of walking 
by the World War II Memorial, for purposes of walking by the 
Vietnam Wall, and coming back by the Korean War Memorial, and 
it is a reminder, just as your presence here today is a 
reminder, that those of us who serve in public office need to 
use you as role models to those reminders of those walls and 
those memorials. Not a person there served their country for 
purposes of Republicans or Democrats. They served their country 
for purposes of Americans, for their families at home, for 
making the world a better place. We need that same attitude and 
approach, and I thank you for being the role models that you 
are at home and here in the Nation's Capital.
    Commander Schmitz, thank you for your advocacy. The work 
the VFW does on behalf of our Nation's veterans is critical. 
Thank you for the leadership role that you have assumed, and 
this Committee is lucky to have you here today, fortunate to 
hear what you have to say, as we make our decisions in public 
policy and legislation about what we can do, what we need to 
prioritize.
    My top legislative priority, unless you tell me otherwise 
in your testimony, is to give the VA and local communities the 
authority and the resources to help at-risk veterans find hope 
and stay off the path of suicide. VFW has consistently 
advocated for a focused and coordinated effort among Congress, 
the VA, and stakeholders to effectively address veterans' 
mental health needs and help prevent veteran suicide.
    I come from the rural part of Kansas, but I represent the 
entire State, rural, urban, and suburban. The challenges are 
there everywhere, and each may need a bit of uniqueness to find 
the right solution to meet the needs of those who contemplate 
suicide and those who need mental health services.
    I also want to make certain that the MISSION Act, a piece 
of legislation that I think is one of the most significant for 
Congress to pass in recent time related to the VA--I want to 
make certain that the VA is consulting with veterans service 
organizations, that they are paying attention to the VFW and 
its members, that they are talking to Congress. If we fail, if 
the VA fails to implement the MISSION Act in the appropriate 
way that cares for veterans in their circumstances, we will 
have missed a tremendous opportunity for and improving VA.
    I share these goals. I know with my colleagues here sitting 
next to me, these ought to be and are bipartisan, bicameral 
issues that we can resolve.
    I was asked this morning what one of my other committees 
was going to accomplish this year, and unfortunately, the 
answer that I gave was one I hate, which is, well, it is an 
election year, so I am not certain we are going to be able to 
do much of anything. Well, in this place, there are elections 
all the time. It is an election year seemingly every year, and 
if that is the excuse that we cannot do something because it is 
an election year, then we will be unable to do anything always. 
That is a terrible outcome. It is a terrible outcome for the 
American people. It is a terrible outcome for those who served 
our country and sacrificed that our democracy can work.
    The person I was talking to said, ``Well, it is a good 
thing that you chair the Veterans Committee because that is 
still the one place where Republicans and Democrats get 
along,'' and we need to make certain that that is true and that 
it continues.
    I pledge to Chairman Takano and to my colleagues here, 
certainly to Senator Tester, the Ranking Member, our Ranking 
Member of our Veterans Committee, that that needs to remain 
true, and we owe it to you, those who are present with us 
today.
    Commander Schmitz, we look forward to your presentation. I 
look forward to working together with you.
    I enjoyed joining the VFW when you had your convention in 
Kansas City a year ago, and I look forward to your return. We 
are honored that Kansas City--President Trump would say, ``It 
is probably in Kansas,'' but that Kansas City, Missouri, is the 
home of the National Headquarters for the VFW. Just like we 
hold dear and own the Chiefs, we look at your presence in 
Kansas City as being in Kansas, and we are delighted that that 
presence exists. We know that you bring from the Heartland and 
across the country a message for us today, and I look forward 
to hearing it.
    Thank you.
    Chairman Takano. Thank you, Chairman Moran.
    I now call on Ranking Member, Dr. Roe, for his opening 
statement.

               OPENING STATEMENT OF HON. PHIL ROE

    Dr. Roe. Thank you, Chairman.
    Welcome, Commander Schmitz and VFW members and members of 
the VFW Auxiliary, the people who do all the work.
    [Laughter.] [Applause.]
    Dr. Roe. It is a distinct pleasure for me to be here today 
with Chairmen Moran and Takano and Ranking Member Tester, all 
good friends, at the joint hearing today, and I appreciate your 
attendance.
    It has been an honor and a privilege for me to attend these 
hearing for a dozen years that I have spent in Congress, but 
this will be the last time I will be with you because I am 
retiring at the end of this year, and I realize what a good 
politician I am because I made, in my district, some of the 
Republicans and all the Democrats happy by my retirement.
    [Laughter.]
    Dr. Roe. I look out here and I am going to veer from my 
notes just a moment and tell you that as a veteran, the 2nd 
Infantry Division, I was in the Army 47 years ago. I look out 
here at this group of men and women, and you are the reason we 
have a free country. I was able to be raised on a very small 
farm in Tennessee, to be able to go to medical school, and to 
be able to serve this great Nation. You are the reason that I 
was able to do that because we are free because of the 
sacrifice that each one of you made for this country and you 
continue to make because you continue to come here every year 
and pack this room and advocate for me for the people I will 
never be able to do enough for.
    I got home with absolutely no injuries at all. Some people 
think I was injured, but I think I am fine.
    [Laughter.]
    Dr. Roe. Yet, so many people came home with catastrophic 
injuries. I cannot do enough for those men and women who served 
this country and sacrificed and changed their entire life 
because of their service to our great Nation. So, I thank you 
for what you have done, and I appreciate your service and your 
continued service to the country, years after many of you left 
the military.
    It is because of organizations like the VFW that my time in 
Congress has been so fulfilling, and I know that I am leaving 
this town in very good hands.
    The men and women of VFW and thousands of whom are veterans 
themselves work tirelessly to care for those who bear the 
wounds of war and empower them to succeed, and before I 
continue with my opening remarks, I would like to take a moment 
personally to thank each and every one of you for your 
sacrifice.
    I want to welcome the VFW's national leadership team. It is 
a pleasure to have you all in the Capitol, and I want to also 
extend a special welcome to your commander-in-chief, William 
``Doc'' Schmitz. Thank you. We are very glad to have you here. 
Sir, thank you for your service to our Nation and the Navy and 
for your leadership within the VFW and for being with us today.
    I also want to acknowledge, as I did previously, the 
members of the Auxiliary. Thank you all for being here.
    Many of you wear many hats as spouses, as volunteers, as 
caregivers, and many more, and your service to those who have 
served our country does not go unnoticed. I thank all of you 
for that.
    Finally, I want to say a special hello for the VFW members 
in my home State of Tennessee. If you are in the audience, 
please hold your hand up or stand, if you can. I know they are 
here because I have a list of you.
    [Applause.]
    Dr. Roe. We are undergoing a tough time in Tennessee right 
now. We have lost at least 25 of our citizens in a terrible 
tornado around Nashville. So, please keep us in your prayers.
    For over 100 years, the VFW has been a leading voice for 
our Nation's veterans, and with VFW support, the VA has 
undergone a transformation. Veterans have greater access to 
care, greater control over their health care decisions at VA 
than ever before. Veterans can use their GI Bill benefits 
whenever they choose. Veterans' unemployment has reached near 
record lows. Veterans are getting their appeals for disability 
compensation decided faster and more efficiently. Veterans of 
the Blue Water Navy are finally receiving the benefits they 
have earned. The widow's tax on dependents and indemnity 
compensation benefits has been repealed. Fewer veterans are 
homeless. Fewer veterans are dependent on opioids.
    The VA has more funding and more staff and is now one of 
the top six best places to work in the Federal Government. This 
success is due to sustained bipartisan congressional commitment 
to prioritize veterans' needs, the Veteran First focus of the 
Trump administration, and the continued advocacy of 
organizations like the VFW.
    VFW leaders here in Washington continue to provide valuable 
information and feedback to Congress to help us ensure that 
veterans can achieve their full potential. A great example of 
the importance of our partnership with the VFW actually 
occurred during last year's joint hearings.
    As we were sitting before the VFW and other VSOs to hear 
your testimony, the House was preparing to vote on and pass 
H.R. 1112. H.R. 1112 has the potential to add names of over 1.7 
million veterans for the service-connected adjudication by VA 
of mental issues to the FBI's NICS list. If this bill were 
enacted in its current form, those veterans could be barred 
from possessing or purchasing a firearm. It is unfair to assume 
that just because a veteran has a mental health condition that 
they are a danger to themselves or others. Equating the threat 
of violence with a mental health diagnosis reinforces dangerous 
stereotypes and stigma against those with mental illness that 
can prevent them from getting the help and increase feelings of 
shame, isolation, and suicidal ideation. Moreover, any decision 
that would infringe on a veteran's constitutional right should 
be handled by a judiciary authority and not a VA bureaucrat.
    I would like to thank the VFW for bringing the unintended 
consequences of 1112 to Judiciary Chairman Nadler's attention 
prior to the House passage of this bill. Due to the VFW's 
actions, Chairman Nadler committed to addressing the injustice 
that H.R. 1112 would cause for our Nation's veterans. 
Regrettably, it has been a year since the VFW raised these 
issues, and I have yet to see any proposals from the House 
majority that would correct this problem.
    As you can see, our work is not over, but I know that the 
VFW will continue to be a strong advocate for protecting a 
veteran's Second Amendment rights, and that together we will be 
able to keep building our successes for our Nation's veterans 
and their families.
    I salute you, and, Mr. Chairman, I yield back.
    Chairman Takano. Thank you, Dr. Roe.
    I now call on Ranking Member Senator Tester for his opening 
comments.

              OPENING STATEMENT OF HON. JON TESTER

    Mr. Tester. Thank you, Chairman Takano, and I want to say 
good afternoon to everybody that is in the room.
    Commander Schmitz, I am honored to have you and your 
leadership team with us today. You are very well served by your 
legislative service folks. I cannot tell you how much my team 
and I depend upon their advice and their perspective.
    Representative Roe, I just want to tell you--and it was the 
same with Senator Corker from your State--this is one Democrat 
that is not happy with your retirement, OK?
    Look, I want to take a moment to recognize the Montanans in 
the room here today, and I hope they are in the room and not in 
the anteroom, as with the legion, Chairman Moran.
    Tom Johnson, Harold Wheeler, Tim Peters, could you guys 
stand up? Ron Merwin, Jack Hawley, Art Whidhalm and his wife 
Marilyn. Thanks, guys.
    [Applause.]
    Mr. Tester. I am just going to tell you on a side note, 
yesterday they were in my office, and we were talking about the 
priorities of the VFW. These folks presented me with a plaque, 
as many of you know, because I have brought it out in previous 
hearings.
    As a junior high and high school student, I played Taps at 
many a funeral. They gave me a plaque with a bugle on it, and 
it even works. I played the plaque yesterday, guys.
    [Laughter.]
    Mr. Tester. I want to thank you, everybody in the room, 
including my friends from Montana for the work that you do for 
your individual States and for the Nation.
    Commander, I have said this many times before, and it is 
true today as it was when I have said it previously. We are 
here because Congress needs to take its cues from you.
    VFW members are the beneficiaries of VA health care, and 
they utilize its programs every day. You know better than any 
one of us sitting at this dais how the VA is performing 
nationwide and the improvements that should be made on behalf 
of the families and the veterans. We hold these hearings 
because only VSOs can help Congress folks on what veterans need 
and how to make sure that the VA is equipped to deliver those 
needs.
    Commander Schmitz, I need to hear from the VA whether the 
VA is operating in a transparent manner as they execute the 
largest overhaul of veterans health care in a generation; that 
is, the VA MISSION Act.
    I need to know our views on gender disparities at the VA 
and what Congress can do to push the VA to provide more 
equitable treatment of our women veterans.
    I need to know how toxic exposure impacts your members from 
Agent Orange, presumption conditions to burn pits.
    When it comes to mental health treatment and suicide 
prevention, I need to know where the VA is doing a good job and 
where they need to improve.
    As you know, a lot was accomplished last year for veterans, 
including passage of the VA MISSION Act, Appeals Modernization, 
the Colmery GI Bill. That list goes on. It is imperative that 
the VA provide regular opportunities to hear from the VFW and 
other groups about implementing these laws. VA needs to better 
understand how the decision it makes will affect veterans as 
they receive veterans benefits, and the VA cannot gain an 
understanding unless it listens to veterans.
    Commander Schmitz, we are here to listen to you. The voice 
that you and your members provide is an important source of 
information as we attempt to do right by all veterans.
    I want to welcome you again. I want to thank you for what 
you and your organization do on behalf of disabled veterans, on 
behalf of veterans and their families. Thank you for being 
here.
    Chairman Takano. Thank you, Ranking Member Tester.
    Now I would like to recognize VFW Executive Director B.J. 
Lawrence to introduce the VFW leadership. Mr. Lawrence?
    Mr. Lawrence. Thank you.
    Members of the Senate and House Veterans' Committees, I am 
honored to have the privilege of introducing the National 
Officers of the VFW and Auxiliary. Mr. Chairman, please allow 
me to ask those introduced to please remain standing, and I 
wish to request the audience to hold its applause until all 
have been introduced.
    From our Auxiliary to the Veterans of Foreign Wars of the 
United States, our National President, Peggy Haake from Hawaii; 
Auxiliary Senior Vice President Sandra Onstwedder of Michigan; 
Auxiliary Junior Vice President Jean Hamil from Florida; 
Auxiliary National Secretary-Treasurer Ann Panteleakos from 
Connecticut; Auxiliary Legislative Ambassador Mercie Woolfolk 
from Illinois; and our VFW Junior Vice Commander-in-Chief's 
wife, Megan Mihelcic from Illinois.
    Now our National Officers of the Veterans of Foreign Wars 
of the United States, our Senior Vice Commander-in-Chief, 
Harold ``Hal'' Roesch from Virginia; Junior Vice Commander-in-
Chief Matthew ``Fritz'' Mihelcic from Illinois; Adjutant 
General Kevin Jones from Missouri; Quartermaster General Debra 
Anderson from Missouri; Judge Advocate General J. Douglas 
``Doug'' Whitaker from Nebraska; Surgeon General Curtis ``Doc'' 
Bohlman from Oklahoma; our National Chaplain, James ``Jim'' 
Jenkins from Kansas; National Chief of Staff Paul R. Phillips 
from Delaware; Inspector General Duane T. Sarmiento from New 
Jersey; and our Chairman of the VFW National Legislative 
Committee, Ronald Rusakiewicz from Connecticut; Director VFW 
National Legislative Service, Carlos Fuentes from Maryland; 
Director VFW National Veterans Service, Ryan Gallucci from 
Maryland.
    I would also like to recognize the VFW Student Fellows. 
These student veterans exemplify the future leaders of our 
great Nation.
    Finally, we have many of our past Commanders-in-Chiefs with 
us representing our great organization.
    Thank you, Mr. Chairman, for allowing me to introduce our 
leadership team.
    [Applause.]
    Chairman Takano. Thank you, Executive Director 
B.J. Lawrence.
    Now I would like to introduce my colleague, Congressman Tom 
Reed, to introduce our special guest. Congressman Reed?

                   STATEMENT OF HON. TOM REED

    Mr. Reed. Well, thank you very much, Chairman Takano, and 
to Chairman Moran and the Ranking Members, Senator Tester and 
Dr. Roe, my colleagues in the House.
    Doc, I have been looking forward to this for a little 
while. I get to introduce you.
    Mr. Schmitz. That is scary. Yeah.
    Mr. Reed. I know it is.
    I was so concerned because this guy right here works for 
me, if you guys did not know that, but he has not caused any 
national incidence or international incidences as he has 
traveled around the world.
    [Laughter.]
    Mr. Reed. So, let us not break that tradition today.
    I just first want to continue the tradition of recognizing 
the VFW and those members of New York who may be in the room 
today.
    Can we get a round of applause for our New York VFW 
members?
    [Applause.]
    Mr. Reed. Chairman and Ranking Members, I come here today 
as a proud member of the Sons of the VFW. My 11 older brothers 
and sisters were taught in our family the lessons of my father. 
My father served in World War II, in Korea--multiple Purple 
Hearts, a Silver Star recipient. I will just tell you when he 
passed I was 2. I do not have any independent recollection of 
him. Yet, I do know as I sit and stand in Fort Sheridan at his 
burial site that the lessons that he installed in our family 
are deep when it comes to military tradition and military 
commitment.
    I know firsthand watching my mom raise the 12 of us with 
the help of brothers and sisters from her military extended 
family that came together in her time of need to raise us, but 
more importantly, the lesson that was taught from my dad and 
from my mom to us is that when it comes to our military, you 
stand with them not only when they are deployed, but also and 
most importantly, you stand with their families, not only when 
they are deployed, but also when they come home. We stand with 
them until their dying day.
    I will tell you that we have carried that commitment in our 
term in Congress because we have people like Doc Schmitz. We 
have people like Doc Schmitz who is a true leader when it comes 
to veteran services, his national leadership in regards to the 
VFW post that he now serves as its National Commander-in-Chief.
    And, I have just got to tell you, I have known Doc for many 
years now, and I met him--and I will never forget the first 
time I met him. My predecessor's tenure in Congress was coming 
to an end, and we met on a street right outside of my church in 
his car. He had indicated to me that he wanted to potentially 
stay with our office. He recognized that it was a Democratic 
office and I was a Republican coming into that office, and when 
we had that conversation sitting in his car, I looked Doc in 
the eye and I said, ``Doc, you are someone who is committed to 
vets. I do not care if you are a Democrat. I do not care if you 
are a Republican. I share that commitment, and I would be 
honored if you stayed in our office.'' That started a now 10-
year relationship where Doc and I talk incessantly about 
veterans' issues, veterans' constituent cases.
    He still is on my staff. He will call me at many of the 
State conventions. He will call me from VFWs where he is maybe 
having a couple of cocktails in the evening, and we will get 
signed on to legislation in real time because, as I tell Doc, 
you are my eyes and ears when it comes to veterans' issues. So, 
if Doc tells me that it is a priority for a vet, I can tell you 
we will sign on and stand with Doc Schmitz and the VFW to make 
sure that their priorities are enacted.
    Doc served honorably in the U.S. Marine Corps from 1966 to 
'70. He joined the VFW in our hometown post, Post 524 in 
Corning, NY, in the year 1971. That is a year very important to 
me because, as Doc knows, that is the year of my birth. So, 
that tells you how old this guy is.
    [Laughter.]
    Mr. Reed. And, you are not honoring the facial hair policy 
of our office. You got to shave that mustache off.
    [Laughter.]
    Mr. Reed. No, that is part of his shtick.
    Mr. Schmitz. Maybe tomorrow.
    Mr. Reed. That is part of his shtick.
    I will just turn it over to you, Doc Schmitz, and to you, 
Senator, and to the Members of this Committee. You cannot have 
a better set of eyes and ears in the veterans community than 
the National Commander of the VFW and all of the members of the 
VFW that are represented here today.
    But, in particular, Doc, it is an honor to have you on our 
staff, and it is an honor, most importantly, to call you a 
friend. Welcome. Love you, Doc.
    [Applause.]
    Chairman Takano. Thank you, Congressman Reed.
    Commander Schmitz, you are recognized for 10 minutes to 
present your opening statement.

   STATEMENT OF WILLIAM ``DOC'' SCHMITZ, ACCOMPANIED BY B.J. 
LAWRENCE, RYAN GALLUCCI, CARLOS FUENTES, AND RONALD RUSAKIEWICZ

    Mr. Schmitz. I will time it. Thank you, sir.
    Congressman Reed, you said a lot of good stuff about me, 
but you are the best. You are community-oriented, and I will 
tell you what, you could not ask for a better guy to represent 
the district. He is in the district, about the district, about 
the people, taking care of business, and he listens before he 
jumps.
    Thank you very much, sir. I appreciate that.
    Chairmen Moran and Takano, Ranking Members Tester and Roe, 
it is my pleasure to represent 1.6 million members of the 
Veterans of Foreign Wars and its Auxiliary.
    I have the honor of visiting veterans, servicemembers, and 
their families around the world, from Eureka, Montana; to New 
York City; and all the way to Jerusalem. What I have witnessed 
is impressive, a selfless commitment to defend our country 
while in uniform, and millions still serve long after leaving 
military service. Your work impacts us every day. That is why 
the VFW thanks you for effectively securing to pass the Blue 
Water Navy Vietnam Veterans Act.
    [Applause.]
    Mr. Schmitz. Additionally, 65,000 military survivors can 
now focus on healing from the loss of their loved ones and 
taking care of their families and not worried about struggling 
to pay their bills. This was made possible by the elimination 
of the widow's tax.
    [Applause.]
    Mr. Schmitz. However, there is a long list of to-dos. The 
brave men and women who wear the national uniform are asked to 
serve in the most dangerous environments on earth. They 
faithfully follow their orders with an implicit understanding 
that America will take care of them when they return home.
    Vietnam veterans did our part. After winning every battle 
they fought while in Vietnam, many of them have lost their 
fight to the horrors of health conditions they received from 
the exposure of Agent Orange. It is unacceptable that the list 
of conditions presumed to be associated with Agent Orange 
exposure do not include bladder cancer, Parkinson's-like 
syndromes, hypertension, and other conditions that scientists 
have said are connected to military service, but VA keeps on 
not acknowledging it.
    Congress and the VA must get together and take care of 
their veterans.
    [Applause.]
    Mr. Schmitz. While we are at it, we need to set up a 
process to ensure that it never happens again. It is time for 
Congress to benefit--oh, my page got all screwed up here. Look 
at that. It will not flip. I will bet you never had that 
problem. Change the framework and provide benefits to 
individuals who suffer from conditions associated with toxic 
exposure, which is why the VFW proposes a permanent, 
comprehensive, and evidence-based framework for granting 
presumptive benefits for toxic exposure.
    For example, veterans who were exposed to burn pits are now 
suffering from pulmonary conditions and rare cancers not having 
to wait decisions and benefits like the Vietnam veterans did.
    The VFW promised proposed processes of granting benefits 
would require VA to acknowledge the existing research linking 
these conditions to their service and establish benefits in 
support by science.
    It is important to ensure veterans suffer from adverse 
health conditions related to toxic exposure receive benefits, 
but acknowledging the science also ensures VA can improve the 
care that 90 percent of VFW members use and prefer. The VFW 
members prefer the VA because they like the quality of care 
they receive. The VA understands and knows how to care for the 
service-connected disability, and it is their service that has 
earned them the right to be taken care of by the VA.
    Our members indicate that the VA health care is trending in 
the right direction. With VFW-supported VA MISSION Act, less 
than a year out from implementation, the VA still has a lot of 
work to do.
    The number 1 recommendation of the VFW members on how to 
improve VA health care is to hire more staff. A recent VA 
Office of Inspector General report agrees with us. It found 
that staffing shortages and ineffective processes at VA medical 
centers have led to the veterans waiting an average of--hold on 
to your hats on this one--66 days with 34 of those days waiting 
for staff to create the authorization. That is a heck of a 
wait.
    VA must fill the nearly 50,000 vacancies with high-
qualified applicants and install reforms that expedite workflow 
to ensure veterans have timely access to high-quality care they 
deserve.
    VFW members are very pleased with the ability to receive 
urgent care close to home, which was made possible by the VA 
MISSION Act.
    However, the VFW wholeheartedly disagrees with the VA's 
decision to charge veterans for service-connected urgent care. 
VA cannot charge for service care, regardless of where it is 
coming.
    [Applause.]
    Mr. Schmitz. I am pleased to report despite a rocky start, 
VA, by and large, is doing a good job of implementing the VFW 
Champion Appeals Modification Act. Veterans are receiving 
faster decisions on their claim, and their appeals and legacy 
appeals waiting to be certified by the board have decreased.
    What we are concerned about, however, is that the VA has 
made bureaucratic-centric decisions which delay the timeliness 
and accuracy of the claims. For example, VA is requiring 
veterans to use supplementary claim forms. It should not no 
longer apply to them. This was done to conform report 
requirements and make things easier for the VA, not the 
veteran. The VFW does not care about VA reporting requirements. 
We care about the requirements, meaning claims will be delayed 
months and maybe even years for the veterans. Submitting the 
wrong claim? You have got to be kidding me.
    Congress must do its part in making sure the VA has 
resources it needs in IT upgrades and promptly administering 
benefits. ITs have been a problem, consistently a thorn in the 
VA's side.
    With implementing the VFW Champion Forever GI Bill, if VA's 
education services had modern IT platforms, errors like the 
delay in education payment to nearly 200,000 students could 
have been avoided or at least minimized. To fix overpayment 
issues, increased oversight, Congress must pass the Protect the 
GI Bill.
    [Applause.]
    Mr. Schmitz. The VFW has been committed to helping veterans 
suffering from mental health conditions before they reach the 
point of crisis. Through our Unmet Needs program, Project 
Atlas, and hosting A Day to Change Direction events with our 
partners, Give an Hour, the VFW is leveraging a footprint in 
communities throughout the world to do our part in reducing the 
number of veterans who take their own lives.
    VFW commands the members of committees that are making 
efforts to find solutions. This is why we urge Congress to pass 
the Commander John Scott Hannon Veterans Mental Health Care 
Improvement Act of 2019, which would make significant strides 
in improving mental health and suicide prevention efforts.
    Congress must also pass the Deborah Sampson Act, which 
would ensure VA is ready and able to care for the fastest-
growing cohort of veterans population. It would expand 
availability of women's health services through the VA, improve 
current care such as counseling for sexual trauma and make the 
VA services more accommodating to women.
    [Applause.]
    Mr. Schmitz. Life-altering Traumatic Brain Injury also 
merits serious consideration. I recently toured the Tampa VA 
medical center Post-Deployment and Rehabilitation and 
Evaluation Program, where medical professionals are helping our 
special operations get back into the fight by improving 
functional ability, reducing symptoms, stabilizing 
psychological distress, restoring confidence, enhancing family 
relationships, and assisting them in the long-term recovery.
    VA and DOD must expand this partnership to provide the same 
opportunity to all of our men and women who continue to face 
the harsh reality of living with TBI.
    To establish a presumption of service connection of 
disabilities associated with blast exposure, that is a big 
boom. Congress must push the Blast Exposure Protection Act of 
2020.
    [Applause.]
    Mr. Schmitz. The VFW has long argued that military 
retirement pay and VA service-connected disabilities 
compensation are fundamentally different benefits and granted 
for different reasons. This offset exists to balance the budget 
on the backs of the American disabled veteran. Congress must 
enact full concurrent receipt.
    [Applause.]
    Mr. Schmitz. Since 1929, the VFW has worked alongside the 
Defense POW/MIA Accounting Agency (DPAA) and its predecessors 
to reunite our fallen heroes with their loved ones. Due to 
DPAA's efforts, the remains of 203 Americans have been 
identified in the fiscal year 2018. However, sequestration and 
continuing resolutions prevent from doing more. Congress must 
pass the DPAA Support Act, which would exempt DPAA employees 
who are conducting recovery missions from being furloughed in 
the event of Government shutdown.
    Locating, identifying, recovering the remains of those who 
paid the ultimate sacrifice is a difficult and hazardous 
mission. It is a promise to those serving in uniform to day 
that no matter what, we will travel to the ends of the earth to 
return you home to your families.
    [Applause.]
    Mr. Schmitz. This includes repatriation of 5,200 
servicemembers who never came home from the Korean War.
    In conclusion, the VFW stands ready to help you improve 
care and benefits for American veterans, servicemembers, their 
families, and survivors.
    To this end, I ask you to dare to care and take care of 
business. God bless America.
    [Applause.]
    Chairman Takano. Well, thank you for your testimony, Doc 
Schmitz. Thank you very much.
    I now want to recognize myself for 3 minutes for questions.
    Commander, I want to have you talk a bit about suicide 
reduction. We have heard from VA in the past that they cannot 
solve veteran suicide alone. It is going to take a concerted 
effort among VA, the Government, and the community, including 
VSOs, to move the needle on this persistent and stubborn issue.
    Can you tell me some of the ways in which VFW is 
contributing? What is the VFW doing?
    Mr. Schmitz. Sir, we made sure that we would be at the 
Atlas grand opening for telehealth where the veterans in 
isolated communities can literally get to speak to their health 
care provider via telecommunications.
    In our communities, we are engaging our communities by 
going to various VA veterans meetings and working with the 
health providers to get the word out and to destigmatize any 
ridicule, any misunderstandings of the mental health issue. 
Everybody gets depressed. Everybody does not feel good all the 
time, and we need to get that out. We network with each other. 
We call a buddy up once in a while, ``How are you doing? I have 
not seen you in a while. What is going on?'' When people are 
engaged and know people are watching, taking care of them, 
interacting, that increases their self-awareness and their own 
personal pride. Hopefully, working strongly with the VA and the 
advice we get from the health professionals, we can help them 
get into the community and foster good relationships and drive 
veterans who are having issues in to get some help.
    Chairman Takano. Well, thank you. Thank you for your 
organization's commitment.
    I want to turn to veterans homelessness. You mentioned that 
for veterans who are on the verge of homelessness, there is 
little that VA can do or is doing. Many of the benefits that 
are offered require veterans to be on the streets before they 
are deemed eligible.
    How does the VFW help these veterans, and how would you 
improve the benefit programs to catch veterans before they 
fall?
    Mr. Schmitz. We have the Unmet Needs program, which assists 
veterans who can apply. ``The hot water heater broke. I could 
not get my rent in on time,'' things of that nature. It is a 
real quick thing. They owe us nothing. They do not have to be a 
member. All they have to be is a veteran or a family member of 
the veteran who is deployed. They can get hold of our Kansas 
office and get some money to help them over the hump.
    Chairman Takano. So, you do not actually have to be a VFW 
member----
    Mr. Schmitz. No, sir, you do not.
    Chairman Takano [continuing]. To benefit from this VFW 
program.
    Mr. Schmitz. That is correct. And, that is also with our 
Service Officer program to help them file claims, whether it is 
a widow or a dependent or the veteran themselves. We are free 
of charge.
    Chairman Takano. Do you have any thoughts or any of your 
staff have thoughts about how we can improve the benefit 
programs to catch people before they fall?
    Mr. Schmitz. Mr. Gallucci, please.
    Mr. Gallucci. Thanks, Doc.
    There are a number of ways that we can improve benefits 
delivery for our veterans. Congress did very well by passing 
the Appeals Modernization Act, but there are ways that we can 
improve it.
    Doc talked about the issue with standard forms created some 
bureaucratic hurdles for our veterans in getting through the 
benefit process. We do not understand why VA went that route, 
especially with supplemental claims.
    Another one that we would have to say is improvements to IT 
infrastructure. The VFW stands ready to assist the veterans 
anytime, anywhere from any reliable internet connection, and as 
VA is building self-service tools for veterans to file claims 
from any internet collection, we stand ready to assist them in 
doing the same for competent VA-accredited service providers, 
like our VFW service officers.
    Chairman Takano. Well, thank you, Mr. Gallucci.
    My time is up. I now want to call on Dr. Roe for his 
questions.
    Dr. Roe. Thank you, Mr. Chairman.
    I want to take--this being my last opportunity to be here 
to thank Carlos. You really have an outstanding member here; he 
is a great advocate for you. I want to give Carlos Fuentes a 
shout out. Thanks, Carlos, for your friendship.
    [Applause.]
    Dr. Roe. Commander, you mentioned the VA staffing, and it 
is not just a VA problem. It is a health care issue across the 
country, staffing. We are going to be 120,000 physicians short 
in 10 short years, nursing shortages, and other health care 
providers, and it is one of the reasons that when we authored 
the MISSION Act, we realized that both the private sector and 
the VA sector were going to be short of people. So, we had to 
share those resources, and I am glad you mentioned telehealth. 
That is going to be one of the ways we cover those. The VA has 
been at the forefront of that.
    I have been in many, many VAs across the country, and they 
are even using it in ICUs, where you will have doctor coverage 
in an ICU at an offsite where you have critical care nurses and 
other people to help when they do not have the personnel to. We 
are going to have to learn how to do better and share our 
personnel across the country.
    Another thing that I want to bring up--and you mentioned 
appeals just a minute ago--when I got to Congress, there were a 
million claims in 2000. That is amazing to me, a million 
backlogged claims in this country, and that number, thank 
goodness, has been whittled down to a very manageable number 
now. Mr. Lawrence wants to have that number completely 
eradicated by July of this year, which I think the VA needs a 
shout out for that. That was a huge problem for veterans. I 
heard it every day, and I know every person up here did when 
they went home. So, I want to give them a shout out.
    One of the things very near and dear to my heart is the VA 
services for women. I am glad--as you know, Commander, the VA 
was set up basically after World War II for men because that is 
who mainly served. I was trying to think back when I was in my 
infantry division in the 2nd ID. I do not remember a single 
female being there when I was there. Now, it is going to be as 
many as 20 percent of veterans are going to be women.
    The good news is 41 percent of eligible women are using the 
VA now as opposed to 48 percent of eligible men.
    I guess I would ask you. What suggestions do you have to 
make it a more welcoming place, or how would we make it better 
for the women who are coming there?
    Mr. Schmitz. Well, the first thing is establish a couple of 
committees where you get input, what is going right and what is 
going wrong, and get that to the appropriate people, the 
director of the specific facility in relation to whatever. And, 
I commend you for recognizing the fact of the medical shortages 
on availability of hiring, but like in yourself when you retire 
from this wonderful job, you might reengage and do telehealth 
because you could literally operate right out of your home.
    Dr. Roe. I am going to the first CBOCs I can find, 
Commander.
    [Laughter.]
    Dr. Roe. I thank you for being here, Commander. I really 
appreciate that.
    I yield back.
    Mr. Schmitz. Thank you, sir.
    Chairman Takano. Thank you, Dr. Roe.
    I now call on--not Dr. Pappas, but Mr. Pappas for 3 
minutes.

                  REPRESENTATIVE CHRIS PAPPAS

    Mr. Pappas. Almost gave me a promotion there.
    Thank you very much, Mr. Chairman and Ranking Member and to 
the Members of this Committee.
    I really appreciate your words, Commander, a really 
stirring testimony that you gave us here this morning. It is 
evident that you represent the passion of so many individuals 
in this room that have given so much to this country. So, I 
want to salute the leadership of the VFW and Auxiliary as well 
as the membership who are here who are so effective in 
delivering this message.
    Something you said stuck with me. This is about not making 
it easier on VA but about making sure the end veteran who put 
everything on the line for this country is central and is 
always central to what we are doing on this Committee and 
ultimately how we are serving those who have sacrificed. So, 
thank you for delivering that message loudly and clearly. It is 
received, and we want to do all we can to implement this 
agenda.
    I want to give a shout out to my New Hampshire folks who 
are here in the room. Please stand up and be recognized if you 
are here.
    [Applause.]
    Mr. Pappas. Thank you very much. Great to see you guys. Our 
small, but mighty, State does well caring for veterans. We 
appreciate your attendance here today.
    One of the issues that our Subcommittee on Oversight and 
Investigations has looked into on the House Veterans' Affairs 
Committee is the issue of provider networks and ensuring that 
as community care rolls forward with MISSION Act that we are 
attracting providers, that they are being paid in a timely 
fashion, so that community care can open doors to our veterans 
to receive care in communities near them. That is very crucial, 
especially in rural districts like mine.
    So, I am wondering as you look at the VA's budget request 
for Fiscal Year 2021 and community care specifically if you 
feel like the resources are there to provide the back office 
support and the framework that is needed to ensure that MISSION 
Act can succeed.
    Mr. Schmitz. Thank you, sir.
    Mr. Fuentes, please.
    Mr. Fuentes. The VFW is proud to partner with DAV and 
Paralyzed Veterans of America to produce a veterans-specific 
budget request or recommendation called The Independent Budget. 
We feel that VA is about $4 billion short specifically on 
medical care, and we do feel that they need more money to be 
able to hire more folks but also implement important 
legislation like the expansion of the Caregiver program.
    Mr. Pappas. Thank you for the response.
    One of the other things I noted in the testimony, you 
mentioned Transition Assistance Program in the written 
testimony, and I am wondering if you can elaborate a little bit 
on a some of the changes we are seeing, any concerns you might 
have as that moves forward.
    Mr. Schmitz. Mr. Gallucci?
    Mr. Gallucci. Thanks, Doc.
    The VFW has a presence on 25 military installations through 
the Benefits Delivery at Discharge program. We are able to 
gather real-time information on what servicemembers are seeing 
as they leave the military.
    We are thankful for the changes that came through the NDAA 
making sure that servicemembers had to serve a track.
    One of the issues that I have to go back to, though, is the 
parameters the Department of Veterans Affairs has put on 
servicemembers getting out to file their benefit claims. We 
used to have the BDD, Benefits Delivery at Discharge, or BDD 
program and Quick Start where a servicemember anytime from 180 
days to separate could file their benefit claim. VA sunset the 
Quick Start program and moved the goalpost back from 180 to 90 
days.
    What we see is that many times, the mission dictates that 
servicemembers cannot meet the strain of that 90-day period to 
file their benefit claims. Looking at our numbers, probably 
about--I want to say about a quarter or a third of our claims 
are excluded from the BDD program, even though we are filing 
them on base for a servicemember.
    I do not understand why VA went back on those programs, but 
I think here we are, a couple of years later. It is time to 
revisit this and make sure that we are setting up transitioning 
servicemembers for success.
    Mr. Pappas. Thanks for your comments.
    [Applause.]
    Mr. Pappas. I appreciate that, and just to reiterate, we 
are here to serve you. Thank you for delivering the message 
loudly and clearly.
    I yield back, Mr. Chairman.
    Chairman Takano. Thank you, Mr. Pappas.
    I now call on Senator Tillis for 3 minutes.

                      SENATOR THOM TILLIS

    Mr. Tillis. Thank you, Mr. Chair.
    Thank you all for being here.
    Actually, I want to talk and maybe just go down the line 
and ask a pretty--well, first off, I should say I met with my--
do we have any folks that are either from North Carolina or 
spent some time in North Carolina when you were in service? If 
you are out there, stand up.
    [Applause.]
    Mr. Tillis. I had the opportunity to meet with some of the 
gentlemen yesterday, and we were talking about some just 
incredible cases, the work that you all do for our veterans. It 
is amazing.
    One thing that I would really encourage you to do--and I am 
sure I speak for every other member--I hear these cases where 
you are helping veterans get the benefits that they deserve, 
and I appreciate you doing that. But, make sure that you call 
on our office to do it first. Do not call on our office when it 
gets hard. Call on our office to do this casework. That is our 
job. We have done thousands of cases in North Carolina.
    I want to make sure you all have the opportunity to cast a 
wider net and find other veterans who are not getting the 
service. So, put the burden on us to do that casework first, 
and if we cannot or there are particularly complex cases, then 
maybe they can use your resources. But, make sure that you task 
us with doing the job because that is a key part of what we are 
supposed to do, and I would appreciate you all casting a wider 
net.
    Now, I think in the limited time, I would just like to ask 
you all. What more can we do to cast a wider net? How do we 
find those veterans who are not in the VA that need benefits 
and need help? What more do you think we can do as a matter of 
work within the Congress to get out to those folks who are not 
connected to the VA, the more than half of the people who 
commit suicide every single day who have no connection to the 
VA? Tell us what we should be focusing on as a matter of policy 
to cast a wider net and do the right thing by our veterans.
    We will just start down the line here.
    Mr. Rusakiewicz. Thank you, sir. I think what we are doing 
in the Veterans of Foreign Wars, and I think it is very 
important for all of us to do, and that is, of course, to get 
the word out, to let veterans know that there is competent, 
compassionate medical health care for them in the VA system and 
help for their families if they need that.
    So, I think that it is a big thing: to make sure that the 
veterans coming out, when they are transitioning out, that that 
is available to them or that it be told to them so that they 
understand they are welcome in the VA system, they and their 
families. I think that is very important.
    Mr. Tillis. As you all go down the line, I chair the 
Personnel Subcommittee on Senate Armed Services, and what I 
want to do is figure out what more we can do in transition to 
make sure that we are doing our part to get them connected and 
make sure they are taking their benefits.
    Mr. Gallucci. Thank you, Senator Tillis.
    I think in the Transition Assistance Program, making sure 
that servicemembers have access to the classes and the 
briefings in a timely manner.
    Again, operations will sometimes dictate--we see this a lot 
with the Navy--that servicemembers cannot get into their 
transition classes as quickly enough.
    VA also should not be afraid to lean on non--I am sorry--
DOD should not be afraid to lean on nonmilitary entities to 
assist, the way that we do on the installations that we serve, 
but also for servicemembers who are looking to go to college 
after they leave the military, just take advantage of all the 
resources that they have, and make sure that servicemembers go 
to TAP early, that they know that they can go often, that there 
are people there to answer their questions, and that their 
family members can attend as well.
    Mr. Schmitz. Mr. Gallucci hit it right on the head.
    You want to catch them before they go, which means you have 
got to talk to the guys and gals while they are in the military 
and educate them what is available after.
    The follow-up is what about the ones that we have not 
caught, the Vietnam veterans who will not come forward, the 
Korean War veterans who will not come forward, maybe Iraqi and 
Afghan, Beirut. When you legislators pass good legislation that 
VSOs have encouraged you to pass, that sends a message to all 
of the ones that are out there that are not in service now that 
maybe you qualify or come under this, which drives them to our 
service officers who drives them to the VA, and now we have got 
them. We have got them, but you folks have to follow through 
with passing good legislation like the Vietnam Agent Orange 
thing.
    How many years did we wait for that? When that finally came 
out, the guys and gals that were coming down with the specific 
problems medically, now they have got a place to go, and it 
explains what the heck was wrong with them to start with. Thank 
you very much for doing some of that stuff, each and every one 
of you. Thank you.
    [Applause.]
    Chairman Takano. Thank you, Senator Tillis, for your 
questions.
    I now want to call on the Chairwoman of our Health 
Subcommittee and the Women's Veterans Task Force, Julia 
Brownley.

                 REPRESENTATIVE JULIA BROWNLEY

    Ms. Brownley. Thank you, Mr. Chairman.
    Commander, I want to thank you for your 4 years of service 
as a Marine, and even more importantly, I want to thank you for 
your lifetime of service to our country and to the veterans 
throughout our country. I say thank you to you, and I say thank 
you to your family because I know your family support is very 
important in all of your endeavors. So, I appreciate it very, 
very much.
    To the California VFW members who are here, welcome, and 
thank you for being here. I thank each and every one of you in 
this room for your service to our country. We deeply, deeply 
are very, very grateful for it.
    Commander, I thank you very much for mentioning the Deborah 
Sampson Act in your testimony. It is an important comprehensive 
bill. We are hoping very much, knock on wood, that the Senate 
is going to take some action. Any help you can give us on that, 
I would appreciate it very, very much.
    But, I wonder if you could just sort of weigh in for a 
moment on just what you believe some of the longer-term 
challenges are that VA faces to prevent women from receiving 
adequate services within the VA.
    I think we are still working with the Veterans Women's Task 
Force. We are still working on making the VA a welcoming place, 
talk about stigma with mental health issues. I think sometimes 
there is a fear of women sometimes entering a VA facility for 
fear that they will not be recognized as veterans or maybe just 
perceived as sort of second class veterans.
    But, from your perspective, what do you think are some of 
the challenges?
    Mr. Schmitz. Some of the challenges or perspective--I am 
sure everybody is familiar with Zumba. Two young ladies came 
out from Zumba to get a beverage, and I walked up to them and 
said, ``Hi. How are you? Are you two veterans?'' and one young 
lady got very indignant and said, ``Why would you ask me 
that?'' I says, ``Well, because you are like in a veterans VFW 
post.'' The other looks at me, ``Well, we are.'' I said, 
``Well, that is good. Where do you serve?'' They served in 
Afghanistan and stuff like that, so we shot the breeze.
    Bottom line is--how it works with me is, I do not care what 
your gender is. If you served in uniform, it is up to me, like 
up to you, to make sure I look out for your back and you look 
out for my back because we are both veterans.
    And, on that note, I am going to turn it over to Mr. 
Lawrence.
    Mr. Lawrence. Thank you, Commander.
    We believe the VA, of course, is undergoing a 
transformational move from caring for mostly males to females. 
Women veterans, as we know, have different needs which require 
doctors that know how to treat those needs.
    You are absolutely correct. Congress must pass the Deborah 
Sampson Act to address these important issues.
    [Applause.]
    Mr. Lawrence. Now, on the VA side of the house, they must 
address not just the services it offers, but first and 
foremost, the way they deliver those services. At the end of 
the day, that is what matters to our women veterans.
    Women veterans are more likely than nonveterans to suffer 
from infertility; therefore, VA must improve reproductive 
health services. I think we are on the right track with VA, but 
I still think we have got a lot of hurdles to overcome.
    We have to improve privacy issues for our female veterans. 
They need to feel comfortable when they go in for those 
services, and certainly, the VFW is going to advocate for that 
until the very end.
    All of our veterans, no matter gender, should be able to go 
to a VA facility and receive timely and adequate health care 
because that is what they deserve, and that is what we promised 
them.
    Thank you.
    [Applause.]
    Ms. Brownley. Thank you very much.
    Again, I salute you all. Thank you, and I yield back.
    Chairman Takano. Thank you, Ms. Brownley.
    I now call on Senator Sullivan for his 3 minutes.

                      SENATOR DAN SULLIVAN

    Mr. Sullivan. Thank you, Mr. Chairman. It is great to be 
back in front of these wonderful patriotic Americans.
    I want to do a shout out to all the Alaskans here. Thank 
you. How about a round of applause?
    [Applause.]
    Mr. Sullivan. I always say we have got more veterans per 
capita than any State in the country. Senator Tillis from the 
great State of North Carolina reminds me his normal rejoinder 
to that is ``Well, we have more veterans in North Carolina than 
you have people in Alaska,'' which is a pretty good rebuttal. 
But, I am still proud of ours, and my constituents certainly 
get the award for coming the farthest.
    Thank you all again, and I want to thank the leadership 
team here.
    I also want to mention VFW Post-9785 in Eagle River, 
Alaska. That is my VFW post.
    We hosted Secretary Wilkie for a roundtable recently. Thank 
you from not just the Eagle River Post, but all the VFW for 
allowing us to do that. It was a great event.
    I want to talk very briefly, Commander, just really for the 
whole panel, but the VFW officially endorsed S. 2950. That is 
my Veterans Burn Pits Exposure Recognition Act. The whole idea 
there, we just have been dealing with Agent Orange and the Blue 
Water Navy, and let us face it. That has all been reactive for 
decades.
    What we are trying to do with this bill is to be proactive. 
We know there are going to be challenges. Let us get in front 
of it.
    What else can we be doing now on the issue of burn pit 
exposure?
    Mr. Schmitz. Well, the first thing is we have got to get on 
it as quick as possible. Otherwise, we are going to lose a lot 
of good veterans like we did with Agent Orange, before they 
figured out what the heck they ought to do.
    Mr. Sullivan. So, your priority is to get the Senate 2950 
passed first.
    Mr. Schmitz. Yes.
    Mr. Fuentes has got some information on that.
    Mr. Fuentes. Senator, thank you very much for introducing 
that bill, which will certainly address some of the hurdles 
that we see now for veterans exposed to burn pits to receive 
benefits.
    We certainly support your bill and urge passage, but what 
we really need is a permanent comprehensive framework to take a 
look at the anecdotes and then take it to benefit to look at 
the research and essentially evaluate. We have enough evidence 
to now provide benefits.
    Mr. Sullivan. OK.
    Mr. Fuentes. We need those presumptive benefits. Your bill 
goes a long way, but we still need to establish presumptive 
benefits.
    We do not have a framework now, and we propose to establish 
a framework not only for Agent Orange, which was successful for 
Agent Orange, but one that would be forward looking, to take a 
look at what is out there now, but also set it up in place so 
that Congress does not have to address each individual exposure 
when it pops up.
    Mr. Sullivan. Thank you for that, and we look forward to 
working with you.
    Mr. Chairman, I know my time----
    [Applause.]
    Mr. Sullivan. I know my time is up, but I did want to just 
mention, since we have two strong veteran supporters here, 
Senator Sinema and Representative Brownley.
    Yesterday, Senator Sinema and I introduced the Reduce 
Unemployment for Veterans of All Ages Act, which I think the 
VFW is looking at as one of their priorities as well, and 
Representative Brownley is the House lead on that. So, I think 
we have a good team right here on one of your other top 
priorities.
    I am going to submit some questions, additional questions 
for the record.
    Thank you, Mr. Chairman.
    Chairman Takano. Thank you, Senator.
    I now call on Congressman Cisneros for 3 minutes.

                  REPRESENTATIVE GIL CISNEROS

    Mr. Cisneros. Thank you, Mr. Chairman, and thank you to all 
the representatives from the VFW that are here today.
    If anybody is here from Southern California, I would love 
to have you stand up and be recognized. There we go. There we 
go.
    [Applause.]
    Mr. Cisneros. My father is a Vietnam veteran, and he is a 
lifetime member of the VFW. I am a proud Navy veteran as well, 
and I just recently this year finally purchased my lifetime 
membership with the VFW.
    [Applause.]
    Mr. Cisneros. I am proud to be a member.
    Commander Schmitz, you mentioned in your testimony about 
the importance of the adoptive automobile grant. Can you expand 
on that, like some of the things why that is important, and 
what you are hearing from your membership on that issue?
    Mr. Schmitz. I will defer to Mr. Fuentes again. Thank you.
    Mr. Fuentes. What we have seen is that, again, disabilities 
tend to get worse, and the automotive grant is an excellent way 
to adapt vehicles to ensure that severely disabled veterans can 
drive. However, the life of a vehicle is about 10 years. The 
life of a disability is for the life of that veteran.
    We have several veterans, several members, who have had to 
purchase other vehicles and adapt them from their own pocket, 
and we fully believe that this benefit should be repetitive. 
Folks should be able to use it for multiple times, not just 
that one time.
    Mr. Cisneros. Well, I wanted to let you know today I am 
working on legislation that, hopefully, will amend the VA 
Adoptive Vehicle Grant program to allow veterans to qualify for 
a new vehicle every 10 years, like you just stated.
    [Applause.]
    Mr. Cisneros. This is directly due to the issues that we 
have heard from the VSOs like yourself, the VFW, and hearing 
from veteran constituents in my district as well. This is 
definitely a need that we need to make sure we take care of.
    Just to kind of change gears here real quick, something 
that I have been working on is really that transition out of 
military service into becoming a veteran. I think we can do 
better with the TAP. That is one of the reasons I actually 
started a caucus focused on TAP.
    I would love to hear from you. What can we learn from the 
VFW, the DOD, that the different services could put into their 
TAP classes that is not there right now?
    Mr. Schmitz. Mr. Lawrence?
    Mr. Lawrence. Thank you, Mr. Cisneros.
    I just recently returned from Naval Base San Diego and Fort 
Bragg and had an opportunity to see some of the TAP classes and 
programs in place. Following up on earlier statements from our 
Commander, one of the first problems we noticed with the TAP 
classes is we recognized that the individual combatant 
commanders have the authority to place mission first. That is 
highly affecting the military member from getting into that TAP 
class in that allotted window and also give them an opportunity 
to be exposed to the services.
    We think that information as it pertains to VSOs is still 
highly vital in those tap briefings. We understand and 
recognize that early on, there were some problems with some 
contracts as it pertains to the presenters, the private 
contract vendors that present the TAP classes, but our 
understanding is that that is now being addressed and hopefully 
should be ironed out.
    The bottom line is we have got to force a way so that 
military member can get through that program in enough time. 
Joint Naval Base San Diego, for an example, has 9,000 
transitioning servicemembers every year, that is a lot of 
servicemembers transitioning from the military out into 
society. We owe it to them to set them up for success and give 
them the best possible opportunity to transition to civilian 
life.
    Mr. Cisneros. I could not agree more, and I will tell you 
as long as I am here in Congress, I will continue to work on 
that issue.
    I just want to thank you all that are here today for your 
service to our country. Thank you.
    I yield back.
    [Applause.]
    Chairman Takano. Thank you, Mr. Cisneros.
    I now call on Senator Boozman for 3 minutes.

                      SENATOR JOHN BOOZMAN

    Mr. Boozman. Thank you, Mr. Chairman, and thank all of you 
for being here.
    Where are my Arkansas guys?
    [Applause.]
    Mr. Boozman. Very good. We appreciate them as being so 
representative of you. They do a tremendous job in our State.
    Thank you for being here. We appreciate the hard work.
    We work really hard as a committee in a very bipartisan 
way, both on the Senate side and the House side. I have had the 
opportunity to serve on both committees. But, we cannot do it 
without the grass roots, and as you look around the room and 
you see standing room only, that is impressive. Thank you for 
doing that. I know it is a hassle for you all to come, but 
again, that is what it is all about.
    The other thing is I see the Auxiliary. Thank you all. We 
know who does all the work, so a big special shout out to you 
all.
    [Applause.]
    Mr. Boozman. Yet, I want to thank you, for one thing. I 
want to thank you for your advocacy regarding veteran suicide, 
trying to do things a little bit differently. A number of the 
people that are committing suicide do not have touch with the 
VA. So, with your help, we are trying to make it such that we 
do a better job of working through community programs that are 
doing a good job so that we identify those people and then get 
them into the VA, get them help through other aspects.
    The other thing is that we are working very, very hard. 
Right now, we are measuring suicide success, not on the number 
of people committing suicide, but access and throwing money at 
it. That has got to change. We are spending a lot of additional 
funds, and yet we are not seeing the rate go down 
significantly.
    So, we want to measure. Those programs that are working 
well, we want to beef up. Those that are not working well, we 
need to get rid of them.
    I would like to ask you a little bit about one thing that 
is hugely important, and that is health care for women 
veterans. The total population of women veterans is expected to 
increase at an average rate of 18,000 women per year for the 
next 10 years.
    Mr. Schmitz, what are some of the key areas where we can 
increase resources and expand upon previous efforts to best 
meet the future needs of women veterans?
    Mr. Schmitz. By hiring more professionals specific to 
anatomical differences, i.e., OB/GYN. There is an incident. The 
female veteran population is more susceptible to birth defects 
than the males just for biological reasons. Other things are 
user-friendly environments. Create a local committee, a 
veterans committee in a respective VA that might not have one. 
I found most of them do have one, though. Engage in a 
conversation with not only health professionals, but the 
veteran community itself, and get a female veteran committee 
going. Make sure on these committees, you have a few females on 
there to give good input to increase a discussion.
    With that, we will move forward, providing you keep giving 
them money to do it.
    Mr. Boozman. Right.
    Mr. Schmitz. Remember, give them money.
    Mr. Boozman. Money is important.
    [Applause.]
    Mr. Boozman. Then again ,we need to measure what is 
working.
    Then, the other thing that is so important that you all are 
helping with is just the idea that now, sadly, occasionally, a 
woman will be in a VA hospital and somebody will come up and 
ask where their husband is. So, we are getting away from those 
kind of things, and again, that is because of a change in 
attitudes. You all are very helpful in that regard, too.
    Thank you.
    Chairman Takano. Thank you, Senator Boozman.
    I call on Senator Tester for 3 minutes.
    Mr. Tester. Thank you, Chairman Takano, and I want to once 
again thank you all for being here. I would also be remiss if I 
did not point out that money should never be an excuse when it 
comes to taking care of our veterans.
    [Applause.]
    Mr. Tester. If you cannot take care of them, you ought not 
send them off to war to begin with.
    [Applause.]
    Mr. Tester. Commander Schmitz, I will ask this question, 
and you can answer or you can defer to anybody you want, of 
course. You know that. I will tell you that to say that the VA 
has botched implementation of the Caregivers expansion would be 
a compliment. It has not gone well. It is a huge disappointment 
to me that the VA has not kept to the schedule that it laid out 
in 2018 when we passed the VA MISSION Act.
    The VA are telling us that they have not put into place an 
IT system that can support the expanded Caregivers program. 
That is just totally not acceptable.
    So, Commander Schmitz, from your point of view, could you 
tell us what it means to disabled veterans and their 
caregivers, many of them elderly, many of them shouldering this 
burden for far too long themselves, to wait even another month 
for caregiver benefits?
    Mr. Schmitz. You are darn right on that one. It is sad, and 
who has more specific feedback on that is Carlos Fuentes.
    Mr. Fuentes. Caregivers give up their jobs to care for 
their loved ones, and it is completely demeaning that this 
program has not expanded to pre-9/11 veterans.
    The Secretary promised last week that he would put out the 
regulations this week, and again, we have not seen it. So, 
hopefully, that is not delayed, but we certainly appreciate 
your support to keeping the pressure on. It should not be 
delayed any further.
    Folks are suffering. We need that support, and it needs to 
be expanded now.
    Mr. Tester. Yeah. I mean, I think for a quality-of-life 
standpoint, that speaks enough, but it may cost a little money 
up front to get this thing going. I think long term, it is 
going to save the VA dollars, and it is going to improve 
quality-of-life for veterans. So, time is of the essence.
    Really quickly, Commander, I want you to talk about the 
electronic health records. Has the VA requested your input on 
electronic health records?
    Mr. Schmitz. Well, we will talk to the man who receives the 
call. Mr. Gallucci?
    Mr. Gallucci. All right. Thank you, Doc.
    We were expecting it to expand to Mann-Grandstaff in 
Spokane later this month, That was delayed. I would like to 
think--and it was confirmed a little bit earlier this week by 
some of our comrades--that the VFW helps to play a role in 
that.
    What we heard from VA is ``We have done extensive outreach 
to VSOs, provided training, so the VSOs are very well aware of 
what is going to happen at Mann-Grandstaff.'' So, naturally, we 
reached out to our network of VA voluntary service volunteers 
who volunteer at the hospital--I think of them is here, Jerry 
Herker FROM Washington--also our service officers who operate 
out of the Spokane Vet Center. They had not heard anything.
    Jerry pulled me aside at this conference and said, ``Hey, 
BJ, Ryan, I got to give you some credit because we were finally 
reached out to and briefed on what is going to happen with the 
expansion of the EHRM at Mann-Grandstaff.'' They were behind 
the eight ball. They need to communicate better with the VSOs 
because we have that community reach. We have the boots on the 
ground, and that is the only way that this is going to get done 
and done right.
    Mr. Tester. I just want to say this. Thank you very much 
for making sure that your voice is being heard. We will help 
you on that too.
    I have got respect for the leadership in the VA. I think 
that they want to do the right thing. I think their strings are 
being pulled by other people, yet I do not want to let Wilkie 
off the hook or Stone off the hook or any of those guys. But, 
the bottom line is that the VA needs to understand that we are 
all on the same team----
    Mr. Gallucci. Yes.
    Mr. Tester [continuing]. And that if we work together, we 
can live up to our promises we have made to the fighting men 
and women of those country.
    Thank you, Commander. Thank you, everybody who is in the 
room today.
    [Applause.]
    Chairman Takano. Thank you, Senator Tester.
    I now call on Mr. Bilirakis for 3 minutes.

                REPRESENTATIVE GUS M. BILIRAKIS

    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it so 
much. I will be as brief as I can. I know I only have 3 
minutes.
    Commander Schmitz, as you know, enacting concurrent receipt 
for disabled military veterans and retirees has been a priority 
for the VFW for years and again a priority of mine for many 
years, as it was a priority for my father, and he really made a 
lot of progress in this area.
    How do these unfair offsets impact your members, sir?
    Mr. Schmitz. Part of it, obviously, is financial, but it is 
great to retire. It is a wonderful thing, but then when you 
find out that all of a sudden, you have acquired a disability 
that possibly forced you out of the military and forced you to 
retire, you did not seek it out. It happened to you. Then, when 
you compromise somebody because of that, that is, first of all, 
demoralizing. It is like, ``What happened to that?'' They are 
two different things that are given for two separate reasons.
    I think it should have never happened to start with, and I 
commend you for taking point on this and trying to drive this 
thing back where it ought to be. Bottom line is if you are 
entitled to both, you should get both without either of them 
being compromised. It is not fair. It is not right.
    [Applause.]
    Mr. Schmitz. Some of that money that that particular 
veteran gets, it goes back into the local system which some of 
it gets taxed that goes back to where it came from to start 
with. So, it is not an all-win on one end of the street. The 
bottom line is the guy or gal that was compromised gets taken 
care of, and God bless you for taking point on that, sir.
    Mr. Bilirakis. Thank you. Thank you. I appreciate that.
    We filed, as you know, the Major Richard Star Act, and I am 
grateful for the VFW taking the lead on this. We need several 
cosponsors in the House, and I know there is a Senate bill too.
    I believe Senator Tester is the sponsor as week as Senator 
Tillis.
    It restores retirement benefits for Chapter 61 veterans who 
were wounded in combat. Again, elaborate, if you can--and I 
think you have done a pretty good job--and tell us why this 
bill should be a priority.
    Mr. Schmitz. Mr. Fuentes?
    Mr. Fuentes. Thank you, Congressman, again for taking the 
lead on this bill.
    As he pointed out, taking care of full concurrent receipts 
would be about $30 billion over 10 years; however, Congress 
should chip away at this unjust benefit by first eliminating 
the offset for those who were discharged through their combat 
service. It is important that we show some progress. It is 
important that we do not allow this to just continue to stay 
idle like it has for so many years, and thank you for that.
    You have the VFW's full support to do what it takes to get 
it past the finish line.
    Mr. Bilirakis. Thank you so much, and let us get this done.
    I appreciate it, Mr. Chairman, for your time, and I yield 
back.
    Chairman Takano. Thank you, Mr. Bilirakis.
    I now call on Senator Sinema for 3 minutes.

                     SENATOR KYRSTEN SINEMA

    Ms. Sinema. Thank you, Mr. Chairman.
    Greetings to the Arizona veterans who have joined us today, 
and thank you to our witnesses for being here. It has been my 
pleasure to work with the VFW to ensure that servicemembers and 
veterans receive the care and benefits they have earned. I am 
proud to have introduced this in a companion to the Reduce 
Unemployment for Older Veterans Act with Senators Sullivan, 
Hoeven, and Senator Tillis.
    This bill eliminates the 12-year eligibility period for 
vocational rehabilitation employment services, and special 
thanks to Congresswoman Brownley for her leadership with the 
House bill. I look forward to working with the Committee to 
pass this legislation.
    My first question is for Commander Schmitz. VFW has been a 
strong advocate to remove the 12-year eligibility period for 
the vocational rehabilitation and employment services. What is 
the impact of this benefit for disabled veterans, and why is 
removal of the eligibility period so important?
    Mr. Schmitz. It is important. As we all know, you acquire a 
disability, with aging process alone, you become more and more 
compromised. Things become more and more difficult. They tend 
to overflow medically into other issues.
    The individual in order to be vibrant in the community, 
vibrant at home, needs to be able to be as mobile as possible, 
given any circumstances that you can provide whatsoever to help 
them accommodate themselves to get to a new job, modify their 
training, so they can qualify for--``Now, all of a sudden, I 
cannot do the walking required in this particular job. How can 
I transition and be trained into a job where I can still get 
there, but I am going to have to sit in a chair for quite a 
while to do it?'' This is critical to keep them active in the 
community and as an active, productive person in our society, 
and it is a ``thank you very much'' for being compromised. We 
are going to do the best we can continually as you live.
    And, Mr. Lawrence will continue on that.
    Mr. Lawrence. Thank you.
    VR&E provides critical counseling and other adjunct 
services necessary to enable service-disabled veterans to 
overcome barriers as they prepare for, find, and maintain 
gainful employment.
    Service-disabled veterans must have the opportunity to use 
VR&E services at any point--I stress at any point during their 
employable lives when service-connected disabilities interfere 
with their employment and when economic changes require them to 
learn new skills.
    The VFW hears commonly from veterans that they did not even 
apply for VR&E because they did not think they were eligible 
due to that 12-year limitation. We have got to change that.
    Thank you.
    Ms. Sinema. Thank you.
    [Applause.]
    Ms. Sinema. Commander Schmitz, in your statement, you 
indicated that the VFW is concerned that the amount of time to 
process an authorization for a veteran to receive care in the 
community is taking far too long. I wholeheartedly agree. This 
is what we hear at our office as well.
    It is unacceptable that a veteran whose clinician has 
authorized a community care consult is waiting nearly a month 
or even longer to have their appointment with the provider 
scheduled, not to get the appointment, to get the appointment 
for the appointment.
    This was meant to be a seamless process. How do we fix this 
problem?
    Mr. Schmitz. Increase their IT functions. Bring them up to 
speed. Turn a lot of the stuff over to the community VA. They 
know the local health providers. Some of them actually work at 
the VA or are recipients of a referral. They know the local 
weather and when you would want to send somebody where for 
what.
    In one place in New York, the scheduler at one time 
scheduled this guy to go for his appointment. It was in the 
middle of the winter, the roads and stuff were not real good. 
Bad choice.
    Another one, they sent him to the wrong eye doctor three 
times, because the eye doctor did not do the procedure 
necessarily, but you had quirks who had no medical background 
making an appointment.
    So, you need to engage the local VA to engage the local 
health providers. They know what they have got out there. They 
live in the community, and they know the doctors and nurse 
practitioners or PAs that they could get appointments with.
    Ms. Sinema. Thank you.
    Mr. Schmitz. Thank you.
    Ms. Sinema. Thank you, Mr. Chairman. I yield back.
    Chairman Takano. Thank you, Senator Sinema.
    I now call on Mr. Lamb for his 3 minutes.

                   REPRESENTATIVE CONOR LAMB

    Mr. Lamb. Thank you, Mr. Chairman, and thank all of you. I 
want to especially recognize the Pennsylvania delegation that 
came by my office yesterday.
    [Applause.]
    Mr. Lamb. I do not know what sins you have committed 
between now and then that they did not give you a seat to sit 
in here today, but just rest assured that I am proud of you for 
whatever it was.
    Gentlemen on the panel, I wanted to ask about the four 
conditions that have been denied presumptive status for Agent 
Orange. I am sure others have probably covered this before I 
got here.
    I represent a very large population of Vietnam veterans, 
some of whom are suffering from these conditions. Particularly, 
hypertension, I think, is very common.
    We have spoken to Secretary Wilkie as recently as last 
week. We have all conveyed how disappointed we are in what is 
happening. I get the sense that most of the opposition is in 
the White House, at OMB, more so than in the VA, but 
regardless, I was just hoping someone on our panel today could 
talk about whether you know and represent veterans suffering 
from these four conditions as well and what it is doing to 
their lives and to their morale that they have not been given 
this presumptive status just yet.
    Mr. Schmitz. Well, to start with, sir, I am one of them. I 
am a mushroom farm for skin cancer. I am also a registered 
nurse by profession. These conditions--someone once said, well, 
the Agent Orange thing has expired. Well, you know something? 
So are my brother and sister Vietnam veterans expiring, and we 
need to--science has substantiated there is a correlation, 
undeniable, between those conditions.
    Why the VA is dragging their derriere in relation to 
addressing them, in addressing them before there is no one to 
address them to, I am totally baffled.
    Mr. Lawrence, could you expound on that, please?
    Mr. Lawrence. Thank you, Commander.
    Our argument has been all along, the scientific evidence 
already meets the established statutory requirements to add the 
four to the presumptives.
    As the commander said, sometimes we feel like we have gone 
through the same battle before with Agent Orange. As he 
mentioned, our Vietnam veterans are getting older in age. It is 
almost like if we kicked the can down the road long enough, we 
will not have any Vietnam veterans to take care of.
    [Applause.]
    Mr. Lamb. That is the impression. Absolutely.
    Mr. Lawrence. By the way, Mr. Lamb, Vietnam veterans make 
up close to 60 percent of our membership in the Veterans of 
Foreign Wars of the United States.
    Mr. Lamb. Absolutely----
    Mr. Lawrence. It is time to take care of them.
    Mr. Lamb [continuing]. And, a growing share of the VA 
population.
    Just in my remaining seconds, for anyone who has not seen 
these numbers, this is not about money. It should not be about 
money because of the service that these Vietnam veterans have 
rendered.
    [Applause.]
    Mr. Lamb. Thank you. I did not even get to my point yet.
    The VA is requesting a $22 billion budget increase just 
this year alone, and they have projected that the 5-year cost 
of taking care of these veterans is $11- to $15 billion.
    OMB is approving a $22 billion increase in a single year 
and denying a smaller $11- to $15 billion cost over the next 5 
years. That is really important for everyone in this room to 
know. It is not about money. It is not about fiscal 
responsibility. It is about which veterans you want to take 
care of when, and they are waiting you out. That is wrong, and 
we are going to keep the pressure on them.
    Thank you, gentleman, all for being here.
    [Applause.]
    Mr. Lamb. I yield back.
    Mr. Schmitz. Chairman, I do have one comment.
    Chairman Takano. Sure.
    Mr. Schmitz. I can speak freely for the Vietnam veterans. 
We do not want to see the same thing that happened to us in 
relation to Agent Orange happening to our brothers and sisters 
with TBI and our brothers and sisters that were exposed to burn 
pits. We are firm on that. We want this addressed now before 
many of them die.
    Thank you.
    Chairman Takano. Thank you, sir.
    [Applause.]
    Chairman Takano. Commander, as Chairman, I hear you loud 
and clear. I want to thank Mr. Lamb for taking on this issue in 
such a dogged way. I believe this issue needs to be made too 
hot to handle, that anyone who wants to touch it is going to 
get burned unless they do the right thing. Thank you so much 
for your advocacy.
    I am told that Chairman Moran does not have questions.
    I want to thank you from the bottom of my heart for you, 
all of you, making the journey to Washington to exercise your 
constitutional rights, your democratic rights, to petition in 
Congress, to make your voices heard.
    I want you to know that you, the Veterans of Foreign Wars, 
as a nonpartisan organization of veterans, the fact that you 
are veterans, you have a voice that is very special. It is a 
moral voice. It is a voice of conscience, and as Senator Tester 
said, if we do not have the money to care for our veterans, we 
should not be sending them to war in the first place I 
wholeheartedly associate myself with that sentiment. It is not 
about money. It is about what is doing right by you, and as 
Chairman, I am determined to make sure that these four 
conditions are listed as presumptive. I thank you for your 
advocacy.
    With that, I want to call this hearing to a close. Before I 
do that, all members will have 5 legislative days to revise and 
extend their remarks and include extraneous material.
    Thank you again for your presentation. This hearing is now 
adjourned.
    [Applause.]
    [Whereupon, at 11:35 a.m., the joint hearing was 
adjourned.]

                                APPENDIX

                              ----------                              


             Material Submitted for the Hearing Record6621

 Response to Posthearing Questions Submitted by Hon. Kyrsten Sinema to 
  William J. ``Doc'' Schmitz, Commander-in-Chief, Veterans of Foreign 
                       Wars of the United States

    Question 1. The work of the VA's National Cemetery 
Administration allows us to honor and recognize veterans and 
eligible family members long after they have left us. VFW has 
advocated for the BRAVE Act to increase funeral and burial 
benefits for eligible benefits and the Honoring Veterans' 
Families Act to allow the VA to recognize deceased family 
members on the gravestones of veterans buried in private 
cemeteries. Can you expand on the importance of these 
legislative initiatives to veterans and their families?
    Response. The VFW is committed to ensuring all veterans are 
properly memorialized in death, regardless of financial 
circumstances, capacity to pay final expenses, or whether they 
are buried in a national, state, tribal, or private cemetery. 
The current burial allowances for veterans are well below 
actual costs. The BRAVE Act would rightfully increase funeral 
and burial benefits for eligible veterans to help defray some 
end-of-life expenses. Similarly, the VFW believes that veterans 
should be honored alongside members of their family. The VFW 
supports the Honoring Veterans Families Act, which would 
properly honor veterans and their families by permitting VA to 
replace headstones furnished by the Secretary to include an 
inscription for a spouse or dependent child.

    Question 2. A skilled VA workforce is crucial to the 
delivery of care and services to veterans. Since Fiscal Year 
2011, the VA Office of the Inspector General has listed Human 
Resources Management in the top 10 non-clinical occupational 
shortage areas across the Veterans Health Administration. How 
do you think this shortage impacts VA's ability to provide 
timely, quality care to veterans?
    Response. A Human Resources Management occupation shortage 
impacts VA's ability to evaluate future vacancies due to 
retirement, maternity, paternity, or short-term leave and 
anticipate when the new hires need to complete the hiring 
process. An H.R. shortage means a shortage in health care 
providers, which impacts delivery of high-quality care.
    Question 2a. What should VA and Congress do to address this 
shortage, and other personnel challenges at VA?
    Response. Conduct oversight to ensure VA anticipates future 
vacancies and posts job opportunities in advance to lessen the 
gap of care. Congress has given VA broad and expedited 
authorities to fill vacancies. VA must use them.

    Question 3. Caregivers are a critical part of the veteran 
care team. They play a significant role in supporting the 
veteran and the VA healthcare system, yet. I often hear from 
caregivers that they feel excluded from their veterans' VA 
health care team and are frustrated they are left out of the 
conversation. As VA implements the expansion of the Caregiver 
Support Program under the MISSION Act, what should it do to 
ensure a more holistic, inclusive support program for 
caregivers?
    Response. The Elizabeth Dole Foundation in partnership with 
VA, USAA, Duke University, and University of Texas Health 
established the Campaign for Inclusive Care. The program 
provides health care professionals a resource to plan and 
implement the inclusion of caregivers into veteran-centric 
care. According to the Campaign for Inclusive Care's website, 
as of March 23, 2020, three VA sites and 664 health care 
professionals are practicing inclusive care with the knowledge 
they gained through the program.
    Question 3a. How can VA improve its policies and procedures 
to ensure that veteran caregivers are better integrated into 
the patient care team?
    Response. Monitor and evaluate the outcomes of the 
facilities that are piloting the Campaign of Inclusive Care. 
Look specifically at health care professional burden, Caregiver 
Support Coordinators involvement, caregiver stress, and quality 
of life of the veteran. In addition, see how the use of 
technology through telehealth or MyHealtheVet can eliminate the 
need to transport the veteran from home to the medical center 
for appointments or inquiries that can be done over the phone, 
secure message, or video chat.

    Question 4. The transition from military to civilian life 
is a critical time to ensure servicemembers have the tools they 
need to transition successfully. Loved ones play an important 
role in this transition. The Somers Veterans Network of Support 
Act would require VA to establish a program that provides 
information to loved ones about VA programs and services so 
family members and friends can better support veterans. What 
information is most critical to share with loved ones so they 
can best support the veteran?
    Response. Our loved ones often notice when we need help 
before we do. Providing a transitioning servicemember's support 
network information about resources available to ease the 
transition from military service to civilian life would ensure 
such services are used. It is deeply distressing to hear when 
veterans slipped through the cracks because they did not know 
about care for which they were eligible.
    Question 4a. How should VSOs be engaged to ensure the 
success of the veteran during the transition and the success of 
the network of support program as it is implemented?
    Response. The comradery provided by the VFW and other 
veterans organizations make us a trusted source for information 
and assistance. The VFW has several programs to ensure veterans 
know about and receive the benefits they have earned, such as 
the Benefits Delivery at Discharge Program. VSOs pioneered 
peer-to-peer support, and continue to conduct activities at our 
posts throughout the world for veterans to share experiences 
and help each other when needed, such as the VFW's Mental 
Wellness Campaign. These programs are most effective when VA 
and DOD include VSOs in transition assistance programs classes 
and keep us updated on programmatic changes.

    [The prepared statement of VFW begins on next page.]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

 
      

                                  <all>
</pre></body></html>
